          Office of the Inspector General
 Corporation for National and Community Service

                     Semiannual Report to the Congress
                                       for the period
                   April 1, 1998 - September 30, 1998
                                      Fiscal Year 1998
                                   Semiannual Report No. 2




As required by the Inspector General Act of 1978, as amended, this report describes our activities
and accomplishments for the second half of fiscal year 1998. Section 5 of the Act requires that
the Corporation's Chief Executive Officer submit this report to the Congress and the
Corporation's Board of Directors within 30 days of its receipt.
                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................. i

IG ACT REPORTING REQUIREMENTS ......................................................................... ii

AUDIT SECTION

   Financial Management .................................................................................................... 1
   EDP Operations ..............................................................................................................6
    Grant Management and Oversight ..................................................................................            8
   Audits and Reviews of Corporation Grants .................................................................... 11
   Audit Resolution .............................................................................................................
                                                                                                                               16


INVESTIGATIONS SECTION ...........................................................................................18


REVIEW OF LEGISLATION AND REGULATIONS ........................................ 23

TABLES

    Table I . Inspector General Reports With Questioned Costs ............................... 24
    Table I1   Inspector General Reports With Recommendations
                --

               That Funds Be Put To Better Use ..........................................................25
    Table 111. Summary of Audits With Overdue Management Decisions .................. 26
    Table IV . Reports Described In Prior Semiannual Reports
               Without Final Action ............................................................................. 27
    Table V . Status of Recommendations On Corporation Management Issues ........ 29

FY98 PERFORMANCE MEASURES

   Audit Performance Measures ...........................................................................................     31
   Investigations Performance Measures .............................................................................
                                                                                                                  32
   Summary of OIG Obligations and Expenditures ............................................................. 36
                          EXECUTIVE SUMMARY

AUDIT SECTION                                           of errors or irregularities, including fiaud, in the
                                                        reporting of service hours (page 8).
During this semiannual reporting period, we
issued 13 audit reports, including reports on,          Audits and Reviews of Corporation Grants
the Corporation's intemal control, its actions
regarding Year 2000 issues, and an assessment           Six reports on Corporation grant programs were
of AmeriCorps Member service hour reporting             issued during the period. Their combined total
(summaries of all audit reports issued during           questioned costs (Federal and match) exceeded
this period are on pages 1 through 15).                 $400 thousand (page 11).

Financial Managentent                                   Audit Resolution

Our auditability assessment of the Corporation          The Corporation continued to make progress in
revealed that the Corporation has made                  reducing unresolved audit reports. The
improvements in intemal control but significant         management decisions backlog continued to
problems continue to exist (page 1).                    decline, and reports pending final action were
                                                        reduced from 18 to 16 (page 16).
We reported that the Corporation lacks an
effective procurement system and that it has not
                                                        INVESTIGATIONS SECTION
complied with all applicable statutory and
regulatory requirements.      Moreover, the             During this semiannual reporting period we
number, nature, and significance of the audit's         received and processed 63 Hotline calls, opened
findings indicate that the Corporation's                18 investigative actions, and completed 10
procurement process is vulnerable to fraud,             investigative actions. We referred three matters
waste, and abuse (page 3).                              to the Department of Justice for a prosecutive
                                                        determination and one matter to the Deparhnent
EDP Operations                                          of Justice for recovery of damages under the
Our report on the computer difficulties facing          False Claims Act (page 22).
the Corporation as the Year 2000 approaches
noted that the Corporation's most critical              We issued three reports to Corporation
system, its financial management system, is at          management documenting various conditions
risk of not being compliant in time to avoid            we found that were conducive to fraud, waste,
disruptions in the Corporation's operations             or abuse. The reports were provided in an effort
                                                        to assist management in increasing Government
(Page 6).                                               integrity and improving program operations and
Grant Managem en? and Oversight                         effectiveness. The referrals to management
                                                        related to allegations of conflict of
We evaluated the controls over AmeriCorps               interest (page 18), allegations of embezzlement
Member service hour reporting at 40 program             (page 20), and allegations of prohibited
sites. The report describes material management         lobbying (page 21).
control deficiencies that increase the likelihood



                                                    i                       FY98 Semiannual Report No. 2
           IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.

   Requirement                                                                           Page

 Section 4 (a)(2)     Review of legislation and regulations.                              23

 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the   Throughout
                      administration of Corporation programs and operations.
 Section 5 (a)(2)     Recommendations with respect to significant problems,           Throughout
                      abuses, and deficiencies found in the administration of
                      Corporation programs and operations.
 Section 5 (a)(3)     Prior significant recommendations on which corrective
                                                                                          27
                      action has not been completed.

 Section 5 (a)(4)     Matters referred to prosecutive authorities.                        22

 Section 5 (a)(5)     Summary of instances where information was refused.              None this
                                                                                        period

 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value
                      of questioned costs and recommendations that funds be put            17
                      to better use.

 Section 5 (a)(7)     Summary of each particularly significant report.                Throughout

 Section 5 (a)(8)     Statistical table showing number of reports and dollar value
                                                                                           24
                      of questioned costs.

 Section 5 (a)(9)     Statistical table showing number of reports and dollar value
                      of recommendations that funds be put to better use.                  25

 Section 5 (a)(10)    Summary of each audit issued before this reporting period
                      for which no management decision was made by end of                  26
                      reporting period.

 Section 5 (a)(l 1)   Significant revised management decisions.                        None this
                                                                                        period

 Section 5 (a)(12)    Significant management decisions with which the Inspector        None this
                      General disagrees.                                                period



                                                  ..                     FY98 Semiannual Report No. 2
                                                  11
                                AUDIT SECTION

The Office of the Inspector General (OIG) Audit Section is responsible for reviewing financial,
administrative, and program aspects of Corporation operations. It carries out these
responsibilities by conducting the audit of the Corporation's annual financial statements,
evaluating the Corporation's management controls, and auditing specific Corporation operations.
The Audit Section is also responsible for auditing grants, contracts, and cooperative agreements
funded by the Corporation. All audit reports are referred to Corporation management for action
or information. Additionally, the Audit Section advises and assists the Corporation in resolving
audit recommendations. A list of all reports issued by the Audit Section during this period can
be found on page 17.



                            FINANCIAL MANAGEMENT

Auditability Assessment of the Corporation for National Service at
September 30,1997 (OIG Audit Report 98-23)

The Government Corporation Control Act (31 U.S.C. 9101 et seq.) requires the Office of
Inspector General to annually audit the financial statements of the Corporation for National and
Community Service. However, as OIG has previously reported, material weaknesses in
management controls and other deficiencies precluded the required audits for fiscal years 1994,
1995 and 1996. Although the Corporation has made progress toward correcting some of the
conditions, during fiscal year 1997, the Corporation decided that due to the nature and
significance of weaknesses that had not been corrected, only its Statement of Financial Position
as of September 30, 1997, could be submitted for audit.

As part of our efforts to perform the audit, OIG engaged KPMG Peat Marwick to assess the
Corporation's progress in correcting the previously reported conditions. The report concluded
that, while there are still internal control deficiencies that require correction, the Statement of
Financial Position could be audited. We also reported that the nature of the audit report on the
statement of financial position would depend on the Corporation's ability to

       resolve the material weconciled difference included on the h d balances with Treasury
       reconciliation as of September 30, 1997;

       provide adequate support for the assumptions used in estimating the service award
       liability for the National Service Trust;



                                                  1                    FY98 Semiannual Report No. 2
                                                                                          A UDITS

        provide adequate support for the assumptions used in estimating grants payable and
        grants advances at September 30, 1997; and

        provide adequate support for the components of the liability related to former
        Commission grant awards administered by the General Services Administration.

During the course of this work a complete reassessment of previously identified internal control
weaknesses was also performed. The remaining weaknesses were regrouped into eight process-
related categories. Most notably, material weaknesses were reported in the processes related
to the National Service Trust, Fund Balance with Treasury, and Payroll and Allowances.
Processes related to Financial Management and Reporting, Grants Management, Revenue, and
Electronic Data also require improvement.

On October 9, 1998, OIG reported1on the results of the Statement of Financial Position audit.
In that report, the auditor's opinion was qualified because of the Corporation's inability to
provide sufficient evidence to support: its methodology to estimate grant advances and grants
payable or the reasonableness of amounts recorded for these line items; and the reasonableness
of amounts recorded in net position as unexpended appropriations and cumulative results of
operations.

The audit report also discloses material weaknesses in six financial management areas: the
overall control environment that sets the tone for the organization, the National Service Trust,
cash reconciliations, grants management, financial systems, and financial management. Finally,
the report also discloses two areas of non-compliance with laws and regulations: the
Corporation's failure to establish a system to assess its internal controls and to report in a manner
consistent with the Federal Mangers' Financial Integrity Act; and the Corporation's substantial
non-compliance with Federal financial systems requirements.




 OIG audit report 99-01, Audit of the Corporation for National and Community Service, Statement of Financial
Position, September 30, 1997.


                                                      2                      FY98 Semiannual Report No. 2
                                                                                   A UDITS
Audit of the Corporation's Procurement and Contracting
Processes and Procedures (OIG Audit Report 98-24)

OIG engaged Cotton & Company to audit the Corporation's contract and procurement processes
and procedures during the period October 1996 through February 1998. The audit's primary
objectives were to determine if the Corporation had an effective procurement system in place
during the period, and whether the procurement system complied with statutory and regulatory
requirements applicable to the Corporation.

We concluded that the Corporation lacks an effective procurement system and that it has not
complied with all applicable statutory and regulatory requirements. Further, the Corporation
has inadequate procedures for contractor selection and award of contracts, contract
administration, and contract monitoring and oversight. Moreover, the number, nature, and
significance of the audit's findings indicate that the Corporation's procurement process is
vulnerable to fraud, waste, and abuse.

Regarding procedures for contractor selection and award of contracts, the report includes 12
findings that range from violations of the Federal Acquisition Regulation (use of cost plus
percentage of cost contracts, sole source contracting, and personal services contracts), to the use
of internally inconsistent contract terms making contract documents conhsing and difficult to
enforce. In one instance, the Corporation used a contract statement of work written and used by
another government agency although its requirements were different from those intended by the
Corporation. In addition, the report identifies more than $1.6 million that the Corporation could
save by hiring staff at the same salaries paid under contracts - the differences are due to the
contractors' mark-ups for indirect costs and profits versus the government's fringe benefit rates.

Regarding procedures for contract administration, monitoring and oversight, the report identifies
five areas where ineffective controls increase the Corporation's vulnerability, including -

        lack of controls over contractor payment and performance;
        inadequate review of contractor billings; and
        inadequate contract files.

Questioned costs and other cost savings in this area exceed $500 thousand.

In the report we made recommendations to improve the Corporation's management controls over
procurement operations and to recover excess billings and fees from its contractors. In its
response to the report, the Corporation generally agreed with the recommendations and identified
steps it planned to take to address some of the deficiencies.



                                                 3                     FY98 Semiannual Report No. 2
                                                                                              A UDITS

Review of Corporation Budgetary Controls
(OIG Audit Report 98-12)

Following up on conditions identified in previous OIG report^,^ OIG engaged Arthur
Andersen LLP to review the Corporation's budgetary controls. The primary finding in the report
was that the Corporation has not implemented a cost accounting methodology to enable it to
systematically allocate costs to its various activities. A cost accounting methodology is
necessary if the Corporation is to quantify the costs to conduct and administer its programs and
to assess their effectiveness. The report also noted that the controls over budget cuff records
were not working effectively. Cuff records are manual records or personal computer-based
spreadsheets maintained by individual offices outside the control of the Corporation's financial
management system. Budget officers maintain cuff records to track the dollar amounts of
expenditures for which they have certified funds availability.

To address these conditions, we recommended that the Corporation

        implement a cost accounting methodology which allows it to assign indirect and
        overhead costs to its programmatic activities based on acceptable managerial cost
        accounting principles; and

        establish and monitor controls to ensure that amounts input into its general ledger are
        complete and accurate and performed in a timely manner.

In responding to the report, the Corporation did not address OIG's specific recommendations,
but stated that it would work with its General Counsel on the issues of documentation and cost
allocations. A management decision describing the corrective actions proposed by the
Corporation was due by October 3, 1998. However, as of October 1998, it had not been
submitted to OIG.




2~eaknesses  in the controls over cuff records were first reported in March 1996 (OIG Audit Report 96-38, Report
on the Results of the Auditability Survey). Follow-up studies reported that these weaknesses continued to exist
throughout fiscal year 1997 (OIG Audit Reports 97-09, Report on the Follow-up Study to the Auditability Survey;
and 97-29, Report on the Follow-up Study to the Auditability Survey - Phase 2 ) .


                                                        4                       FY98 Semiannual Report No. 2
                                                                                           A UDITS
Review of the Corporation for National Service's Reconciliation and
Adjustment of its FY 1995 Fund Balance with the Treasury
Accounts (OIG Audit Report 98-18)

OIG engaged Cotton & Company to review the Corporation's reconciliation of differences
between the cash balances maintained on its general ledger and the balances maintained at
Treasury and the documentation supporting the resulting $12 million reduction of cash on the
Corporation's accounting records. The review disclosed that the procedures employed during
the reconciliation were generally adequate and support the write down of the Corporation's cash
balance. However, the Corporation excluded former Commission on National and Community
Service appropriated funds accounted for by the General Services Administration (GSA) from
the reconciliation even though it is responsible for managing and reporting on these funds.
Several mathematical errors in the reconciliation were also found.

However, apart from the reconciliation, the review raised two additional issues. First, according
to GSA accounting records, the former Commission's funds totaled about $77 million as of
September 30, 1995. As of September 30, 1997, the funds had been reduced to approximately
$14 million related to grants awarded by the former Commission. However, the Corporation was
not monitoring or closing-out these grants. We recommended that the Corporation review these
grants and close them out as soon as possible. In addition, OIG identified the Corporation's
administration and close-out of certain of these grants for future review.

Second, while the errors found in the reconciliation do not have a material impact on the net
amount of the Corporation's "cash write-off," they impact its ability to properly reconcile cash
at the appropriation level, and may affect the fund balances available for individual
appropriations. Moreover, the number, and dollar significance of, errors related to the posting
of appropriations to the Corporation's general ledger raises questions as to the ability of the
Corporation to comply with the requirements of the Antideficiency Act. OIG continues to
emphasize the Corporation's need to assure that controls over the maintenance of accurate
appropriations information in its accounting and other records are working effectively.

In its response to the report, the Corporation stated that it agreed with the findings and that it will
implement most of the recommendations. However, in our recently issued report on the audit
of the Corporation's fiscal year 1997 statement of financial p ~ s i t i o n ,lack
                                                                                 ~ of timely cash
reconciliations continued to be reported as a material weakness.




3
 OIG Audit Report 99-01, Audit of the Corporation for National and Community Service, Statement of Financial
Position, September 30, 1997, issued on October 9, 1998.


                                                                             FY98 Semiannual Report No. 2
                                                                                      AUDITS

                                     EDP OPERATIONS

Assessment of Computer Difficulties Associated
With the Year 2000 (OIG Audit Report 98-20)

The Year 2000 computing crisis is one of the most urgent information problems facing
government today. The problem has arisen because, as computer applications were developed,
programmers saved space on disk drives by using two digits to represent the year rather than
four. As long as the year could be assumed to be of the form 19XX, these codes could be
translated back into years (i.e. 1998 is represented as 98). However, as we approach the
millennium, this paradigm changes. The Year 2000 is represented by 00. We can no longer
assume that a year begins with 19. The result is that date related information will become
inaccurate and misleading. Consequently, many computer systems, including those relied on by
the Corporation to carry out its operations, must be updated to properly recognize the year 2000.

To assess the risk to the Corporation, OIG reviewed the Corporation's efforts to achieve Year
2000 compliance for its information systems. The report identifies several high risk areas
regarding the Corporation's Year 2000 effort. OIG believes that two are of particular importance
to the Corporation. First, there was little awareness throughout the Corporation of the Year 2000
problem. The Corporation's Office of Information Technology was leading an effort to
remediate the Corporation's systems, however, there were no representatives from other
operational units participating in the project. As a result, the Corporation is at risk of not
identifying all critical h c t i o n s and of not focusing its corrective actions on those systems that
are most critical to the Corporation's operations.

Second, the Corporation's financial management system, Federal Success, is not Year 2000
compliant. The Corporation currently plans to replace Federal Success with a new financial
management system, but this effort is in its early stages and may not be completed in time to
avoid a Year 2000 failure. Recently, the Corporation began exploring alternatives to replacing
Federal Success, including making the current system Year 2000 compliant. However, until
such corrective actions are completed, the Corporation is at risk. The implications of the
failure of Federal Success are numerous since the Corporation relies on this system to perform
many of it key processes, such as recording financial information, paying vendors and
processing grants.

To address these conditions we recommended that the Corporation immediately create a Year
2000 Steering Committee to manage the project to its completion. The committee should have
representatives fiom senior management as well as from the Corporation's Operations, Programs,
and Finance areas to ensure that all areas of risk at the Corporation have been considered. We
also recommended that the Corporation accelerate the implementation of the new financial
management system and develop a contingency plan in the event that the system is not


                                                    6                     FY98 Semiannual Report No. 2
                                                                                AUDITS
operational in time to avoid Year 2000 problems. In its response to the report, the Corporation
stated that it agreed with the findings and is taking steps to augment its Year 2000 effort.

On October 8, 1998, OIG testified before the House Committee on Education and the Workforce,
Subcommittee on Oversight and Investigations, on the results of our June 1998 assessment.
During the hearing OIG reiterated our concern that the Corporation's financial management
system is not Year 2000 compliant. Further, it will not be until November 1998, at the
earliest, that the Corporation decides its course of action regarding Federal Success.

We plan to begin a follow-up assessment of the Corporation's corrective actions during the 2"*
quarter of fiscal year 1999. At that time we will examine the Corporation's efforts to test and
validate Year 2000 compliance.




                                               7                    FY98 Semiannual Report No. 2
                                                                                         A UDITS

                   GRANT MANAGEMENT AND OVERSIGHT

Assessment of AmeriCorps Service Hour Reporting
(OIG Audit Report 98-19)

AmeriCorps Members performing service in Corporation fknded programs are awarded post-
service education benefits based on the hours of service they perform. In prior OIG audits and
reviews of AmeriCorps programs: we found that AmeriCorps Members' service hours were not
always accurately reported by grantees. We also found service hours credited to AmeriCorps
Members who performed inappropriate activities. Congressional committee oversight staff also
requested information on the Corporation's oversight of the activities performed by ArneriCorps
Members and the awarding of benefits to AmeriCorps Members who prematurely leave the
program.

To address these matters, OIG engaged KPMG Peat Marwick to evaluate the controls over
ArneriCorps service hour reporting and whether the service performed was in accordance with
the National and Community Service Trust Act of 1993, as amended. The assessment was made
at the program operating site level because the sites are responsible for direct oversight of the
AmeriCorps Members and the systems that report the information to the National Service Trust.
The Corporation relies on this information when paying post-service benefits, to support its
financial records, and as the source from which many statistics on participation in national
service programs are derived.

The report cites material management control deficiencies that increase the likelihood of errors
or irregularities, including fraud, in the reporting of ArneriCorps service hours. These
deficiencies could result in the calculation of a materially incorrect service award liability, the
reporting of inaccurate membership data, and educational awards being paid to AmeriCorps
Members who have not successfblly completed the required term. The summary of high risk
concerns related to service hour reporting includes -

        membership rosters prepared at the Corporation disagree with membership records at the
        program sites;

        not all program sites have effective procedures to monitor the types of activities
        performed by AmeriCorps Members;



4
 OIG Report 98-22, Summary of the Results ofAudits and Reviews of Grants, Fiscal Years 1995 through 1997,
summarizes management control weaknesses and other conditions, including inaccurate reporting of AmeriCorps
service hours and service hours were credited to AmeriCorps Members who performed inappropriate activities.


                                                     8                      FY98 Semiannual Report No. 2
                                                                                  A UDITS
       not all program sites have procedures in place to ensure that an independent review of
       education award certifications is performed (these program sites were generally unaware
       of what constitutes a sound control environment for award certification); and

       at two of the 40 sites visited, pro-rated awards were granted for questionable reasons,
       such as to obtain employment or to avoid negative publicity.

In its August 7, 1998, response the Corporation stated in part that

    ': . . . The report emphasizes the administration of the program at the subgrantee and site
   levels, and does not discuss the responsibilities and roles of state commissions and national
   direct parent organizations. The Corporation has no direct contractual relationship with
   operating or placement sites. Accordingly, the Corporation's efforts are focused on
   strengthening state commissions and parent organizations so that they conduct proper
   training and oversight at the local level. We think the report should reflect this reality.

   Even though a direct contractual relationship does not exist, the Corporation emphasizes
   the importance ofproper training and monitoring at the operating site level and placements
   where AmeriCorps Members serve. The Corporation also provides national training
   sessions which include, among other things, sessions on fiscal oversight, prohibited
   activities, and the National Service Trust, including service hour reporting. The
   Corporation will continue to provide guidance to all AmeriCorps programs through training
   sessions and written material. We will continue to examine current policies and update them
   as necessary. . . . . "

The lack of a direct contractual relationship, however, does not relieve the Corporation of its
responsibility as the Federal agency providing AmeriCorps funding to establish effective
controls over compliance with laws and regulations related to the program. OIG continues to
view the absence of controls that provide reasonable assurance as to the accuracy of information
used as the basis for Federal payments, financial records, and performance data as an area of high
risk for the Corporation. This report indicates that the Corporation's actions to date have not
effectively corrected root causes of the conditions we have reported.

Four OIG reports on the Corporation's financial controls and numerous OIG reports on
individual grantee awards have cited deficiencies relating to service hour reporting and
recommended corrective actions. In our most recent report on the auditability of the
Corporation's financial systems and records (OIG Report 98-23, Auditability Assessment of the
Corporationfor National Service at September 30, 1997, discussed above), we classified the
National Service Trust System as "materially weak" and reported that, among other deficiencies,
membership roster confirmations designed to validate the accuracy and completeness of the data
used to calculate the service award liability are ineffective; and quality control procedures are


                                                 9                    FY98 Semiannual Report No.2
                                                                                 A UDITS
not in place to ensure file maintenance and data entry errors are detected and corrected in a
timely manner. The Auditability Assessment also reported that the Corporation has not fully
implemented corrective actions to address deficiencies related to oversight of service hour
reporting that were first reported in 1995.

In addition, OIG has conducted numerous inquiries into allegations or other accusations
involving AmeriCorps Member time sheets and service hour accounting in general. The
investigative findings that OIG reported to management since early 1995 have ranged from
AmeriCorps Members claiming and receiving certified service hours for inappropriate activities
such as working at McDonald's, to novel approaches for accruing service hours, such as the
"team concept" where everyone on a team earns the total accumulated hours of the team for any
given day, to "inherited service hours," where new AmeriCorps Members "inherit" all the service
hours of a departing Member. We obtained a guilty plea in Federal District Court for the most
basic instance of service hour reporting abuse, reporting and certifying service for someone who
never performed any service hours, but was enrolled merely on paper.

In July 1998, the Corporation requested authority to reprogram funds to increase its
administrative funding. As part of its justification, the Corporation wrote

    ': . . . We need to provide greater oversight of grantees. A recent draft audit has confirmed
   what we already knew, that there are issues about the quality of service record keeping and
   reporting with some grantees. We need to add resources to our oversight program. These
   would take the form of additional staff and contract support, and support for increased
   training . . . . JJ

To provide reasonable assurance that resources are appropriately directed toward effective
corrections, OIG recommended that the Corporation implement a comprehensive corrective
action plan. OIG recommended that the plan take into consideration: the Corporation's need for
accurate information for the National Service Trust's operations and expenditure of Federal
h d s and its performance reporting; the oversight and responsibility role of state commissions
and national direct grantees; and the actual performance of national service activities at the
program site level. We recommended that the comprehensive plan

       identify and address all reported oversight and management control deficiencies related
       to service hour reporting;
       assess risk and provide detailed descriptions of specific corrective actions;
       identify the individuals responsible for implementing the corrective actions; and

       require quarterly progress reporting to the Corporation's Chief Executive Officer and to
       other interested oversight entities.


                                               10                    FY98 Semiannual Report No. 2
                                                                                  A UDITS

Review of Corporation for National Service Pre-Award Financial
Assessment of Grant Applicants (OIG Audit Report 98-02)

OIG reviewed the Corporation's guidelines and procedures for performing pre-award financial
management assessments for its AmeriCorps grants. Our objective was to evaluate whether the
Corporation's guidelines and procedures were adequate to provide reasonable assurance that
grantees have basic financial management capabilities.

Our assessment revealed that, because the guidelines may have been haphazardly implemented,
the Grants Management Office's pre-award financial assessment of grants does not provide
reasonable assurance that grantees have the basic financial management capabilities needed to
administer grant hnds in accordance with Federal requirements. We found that grants
management staff did not always collect information required for assessing the grantees and did
not always resolve deficiencies that were identified during the assessment process. We
concluded that the Grants Management Office's pre-award assessment guidance is flawed, in that
it is not specific enough to clearly describe the procedures to be applied. Finally, we noted that
the Grants Management Office did not maintain a current and accurate listing of grant applicants
and grant awards during the 1997 grant award review process.

In the report we made several recommendations to assist the Corporation in clarifying and
strengthening its procedures for performing pre-award financial assessments of grantees. We
also recommended that the Grants Management Office develop procedures to ensure that
information in its grants database is complete, accurate, and updated on a timely basis. The
Corporation did not respond to a draft of this report.



          AUDITS AND REVIEWS OF CORPORATION GRANTS
The OIG Audit Section also performs financial related audits of Corporation grants. These
audits are intended to assess whether reported costs were allowable under Federal regulations
and whether grantees complied with the terms and conditions of the award. Each of our reports
on Corporation grants contains recommendations for correcting the deficiencies identified in the
reports. Typically, the recommendations are for the grantees to reimburse questioned costs and
to establish and implement policies and procedures to prevent future instances of
non-compliance and improve internal controls.

We issued six reports on Corporation grants during this period. As reported in previous
Semiannual reports, our work has revealed issues in several areas as depicted in the following
table. A summary of each report follows the table.



                                                11                    FY98 Semiannual Report No. 2
                                                                                                         A UDITS

           Grant Audits and Reviews -April 1,1998 through September 30,1998




                           Grantee


    National Multiple Sclerosis Society
    (OIG Report 98-08)
    National Endowment for the Arts
    (OIG Report 98-09)

    Los Angeles Veterans Initiative, Inc.
    (OIG Report 98- 13)

    Student Conservation Association
    (OIG Report 98- 14)
    Navajo Nation (OIG Report 98-15)

    Youth Volunteer Corps of America
    (OIG Report 98-16)

    Total Questioned Costs (Federal & Match)*

    *The amounts reported above include both Federal grant funds and funds provided by grantees as match. The amount
    of Federal dollars questioned is presented in the summary listing of audit reports issued on page 17 of this report.


Summary of Grant Audits and Reviews                                          which was incurred after the grant period;
                                                                             and
National Multiple Sclerosis Society
(OIG Audit Report 98-08)                                                     the National Multiple Sclerosis Society
                                                                             lacked adequate controls over the
OIG engaged Leonard G. Birnbaum & Company                                    preparation and completion of financial
to review the amounts claimed by the National                                reports related to the grant.
Multiple    Sclerosis  Society under      grant
number 94ADNNY03 1. The grant, which had a                         We recommended that the National Multiple
period of performance of July 1, 1994 through                      Sclerosis Society implement policies and procedures
December 3 1, 1996, was awarded in an amount of                    to review and verify the accuracy of its financial
$1,415,150.                                                        reports prior to submission.

Based on the review, we questioned $1,733 (less than               In its response to a draft of the report, the National
one percent) of the costs claimed under the award                  Multiple Sclerosis Society agreed that it had incurred
We also reported that                                              costs after the award period but that it had verbal
                                                                   approval fiom the Corporation to do so. It stated that
         claimed costs included payroll and related                the costs were related to preparation of its final report
         benefit expenses in the amount of $1,733                  on the grant.



                                                             12                          FY98 Semiannual Report No. 2
National Endowment for the Arts                               issue' of need in the community, in particular noting
(OIG Audit Report 98-09)                                      that certain material that was produced at the San
                                                              Francisco site might be viewed as "crude and/or
OIG engaged Leonard G. Birnbaum & Company to                  obscene." The material was published in anthologies
audit the funds awarded by the Corporation to the             bearing the AmeriCorps logo as well as those of the
National Endowment for the Arts (NEA) under grant             NEA and the San Francisco Art Commission.
number 94ADFDC029. The audit covered the costs
claimed ($535,502) during the period October 1,               In its response to a draft of the report, the NEA
1995 through December 3 1, 1996. Funding for this             generally agreed with the findings and
program was provided through an AmeriCorps                    recommendations related to compliance and internal
interagency cooperative agreement between the                 control issues. However, the NEA disagreed with
Corporation and the NEA. The Corporation no                   the questioned costs and challenged the merits of our
longer enters into grant agreements with Federal              assessment that we had "reservations as to whether
agencies and thus is no longer funding this program.          the limited benefit accruing from this program filled
                                                              a pressing need in the community" and that "some of
The report noted that                                         the printed output of the program's participants
                                                              included in publications produced as a result of this
         NEA claimed costs in excess of the amount            program could be viewed by some individuals as
         supported by its financial records, as a             crude and/or obscene...." NEA stated that an
         result, we questioned $9,600 of the costs            evaluation of the program was beyond the scope of
         claimed under the award;                             the work.

         NEA did not submit its Financial Status              Admittedly it was not within the scope of the audit to
         Reports on a timely basis;                           evaluate the effectiveness or the outcome of this
                                                              program. However, in OIG's view, using Federal
         the Bronx site, one of the three sites where         money to finance the production of such materials as
         the Writercorps operated, lacked an                  those published by the San Francisco site is
         adequate labor distribution system; and              questionable. It is also questionable that by doing so
                                                              this program addressed a pressing need within the
         Member timesheets at the Bronx and San               community as required by the AmeriCorps program's
         Francisco sites were not consistently signed         authorizing legislation.
         by the Member and/or approved by the
         appropriate personnel.
                                                              Los Angeles Veterans Initiative
We recommended that NEA submit revised Financial              (OIG Audit Report 98-13)
Status Reports and that it develop and implement
policies and procedures related to the other                  OIG engaged Navarro & Associates to audit the
management controls and compliance findings                   amounts claimed by LA Vets, a program operated by
identified in the report.                                     the Los Angeles Veterans Initiative, Inc., under grant
                                                              numbers 94ADFDCOll and 96ADNCA001. The
Under the grant, the WritersCorps was to focus on             audit covered the costs claimed ($1,443,569) during
helping to improve written and verbal skills by               the period July 1, 1994 through September 30, 1997.
leading creative writing and poetry classes, arranging
opportunities for students to meet with guest writers         The report questioned $122,114 of costs claimed
and poets, supervising field trips, developing                under the grant and identified significant
publications, encouraging journaling, and helping             management control deficiencies including
local institutions develop on-site literary centers.
The report questioned whether the limited benefits                     inadequate controls over the purchase of
accruing from activities performed at and published                    goods and services;
by the program's San Francisco site filled a 'pressing


                                                         13                        FY98 Semiannual Report No. 2
                                                                                                    A UDITS
         an inadequate labor distribution system;                        Veterans Initiative, Inc., were still being
                                                                         evaluated by the Corporation.
         inadequate segregation of duties; and
                                                                In our view, it is troubling that the Corporation did
         consultant and other costs that were not               not place a higher priority on reviewing and
         allocable or properly supported.                       resolving the reported deficiencies and nevertheless
                                                                began the funding renewal process. In its response
However, the conditions noted in the report are only            to this report, the Corporation disagreed with our
part of OIG's concerns related to the Corporation's             assessment of the timeliness of the Grants
award and oversight of its grants to the Los Angeles            Management Office's review and resolution of the
Veterans Initiative. Specifically                               reported deficiencies. LA Vets generally disagreed
                                                                with the questioned costs but generally agreed with
         In fiscal year 1997, despite the Los Angeles           the control and compliance findings.
         Veterans Initiative's non-compliance with
         Federal requirements and the AmeriCorps                In light of the number and significance of the
         grant provisions, the Corporation renewed              findings revealed in our report and the fiscal year
         its grant to the Los Angeles Veterans                  1997 Single Audit Act report, we recommended that
         Initiative, Inc., providing $1.4 million to            the Corporation increase its oversight of the LA Vets
         support the LA Vets program.                           program, including making site visits to determine
                                                                that corrective actions are in place, and provide LA
         In fiscal year 1998, having received a                 Vets with the training and technical assistance
         Single Audit Act report that indicated                 necessary to appropriately administer this program.
         material weaknesses in the Los Angeles                 We also recommended that the Corporation require
         Veterans Initiative's financial management             the Los Angeles Veterans Initiative, Inc., to submit
         systems and a draft OIG audit report that              an audit for fiscal year 1996 as required by the Single
         reported additional deficiencies, the                  Audit Act and OMB regulations.
         Corporation opted to renew the award for
         another program year at $1.3 million.
         Corporation officials stated that this second          Student Conservation Association
         renewal was "contingent" upon the Los                  (OIG Audit Report 98-14)
         Angeles Veterans Initiative addressing
         issues raised in the fiscal year 1997 Single           OIG engaged Dembo and Associates to audit the
         Audit Act report.                                      funds awarded by the Corporation to the Student
                                                                Conservation Association, Inc. (SCA) under grant
         In April 1998, prior to issuing a draft of this        numbers 94ADFDC055 and 96ADNNH004. The
         report, OIG auditors had discussions with              audit covered $5,823,042 in costs claimed by SCA
         the Corporation's Grants Management                    during the period July 1, 1994 through September
         Office staff and representatives of LA Vets            30, 1996, as a subgrantee to the Department of the
         to determine the status of corrective actions          Interior (DOI) and from October 1, 1996 through
         (if any) and extent of the Corporation's               December 31, 1997, as a direct grantee to the
         oversight.      We also reviewed the                   Corporation, to operate two AmeriCorps projects -
         Corporation's grant files. We concluded                the South Florida Ecosystem and the Lower Rio
         that the Corporation had been slow to take             Grande Ecosystem.
         action and follow up on the material
         weaknesses that were reported in the fiscal            The report notes questioned costs of $66,659, about
         year 1997 Single Audit Act report. The                 one percent of the costs claimed, and reported
         Corporation's files indicate that, at the end          internal control and compliance conditions. SCA
         of April, the report and additional                    generally agreed with the findings andlor presented
         information received from the Los Angeles              additional information explaining its actions.



                                                           14                        FY98 Semiannual Report No. 2
                                                                                                 A UDITS
Other Matters                                                          depending on the program year, either
                                                                       Member contracts were not used or all of
As discussed above, under grant number                                 the Members did not sign contracts;
94ADFDC055, from July 1, 1994 through September
30, 1996, SCA was a subgrantee of the Department                       documentation supporting Member eligi-
of the Interior (DOI). When the Corporation ceased                     bility was not always maintained;
making awards to Federal agencies, SCA became the
grantee. Under grant number 96ADNNH004, DO1                            written evaluations of each Member's
continued its participation in the AmeriCorps                          performance were not available; and
program by providing matching costs for the
program, primarily in-kind support in the form of the                  the Navajo Nation lacked an adequate
salaries of National Park Service employees who                        system to evaluate the program.
supervised AmeriCorps Members. From October 1,
1996 to December 3 1,1997, DO1 provided $395,000              In its response to the report, the Navajo Nation
to SCA in the form of such in-kind services.                  disagreed with most of the questioned costs and
                                                              generally offered further explanation for the internal
Language in the DO1 appropriations acts for fiscal            control and compliance findings.
years 1995, 1996, and 1997, prohibited the use of
funds made available to DO1 to support AmeriCorps
programs unless DO1 follows "appropriate                      Audit of the Youth Volunteer Corps of America
reprogramming guidelines." We contacted DO1                   (OIG Audit Report 98-16)
officials who stated that, under DO1 reprogramming
guidelines, reprogramming requests "must be                   OIG engaged Leonard G. Birnbaum & Company to
submitted if the amounts exceed $500,000 annually."           audit the amounts claimed by Youth Volunteer Corps
This threshold was not met under grant number                 of America ( W C A ) under grant number
96ADNNH004 because the support provided by DO1                94ADNKS060. The audit covered the costs
was less than $500,000.                                       ($2,482,433) claimed during the grant period from
                                                              June 29, 1994 through December 31, 1997, and
                                                              included tests to determine whether financial reports
Navajo Nation (OIG Audit Report 98-15)                        prepared by W C A presented fairly the financial
                                                              condition of the award and the award costs reported
OIG engaged Leonard G . Bimbaum & Company to                  to the Corporation were documented and allowable
audit the amounts claimed by the Navajo Nation                in accordance with the terms and conditions of the
under grant number 94ADMAZ033. The audit                      award.
covered the costs ($2,984,460) claimed during the
grant period from July 1, 1994 through December               The primary finding in the report is that YVCA
3 1, 1997. Based on the audit, we questioned $10,848          lacked adequate controls in its financial management
(less than one percent) of the costs claimed under the        system in regard to documentation supporting its
award. We also reported that                                  matching contributions. As a result, we questioned
                                                              $187,676 in matching costs that were not
         progress reports were not submitted on a             supported by adequate documentation. We also
         timely basis and one progress report was             questioned $2,430 of claimed costs which were not
         not submitted at all;                                allocable to the grant. In its response to the report,
                                                              YVCA described actions it has taken to address the
         living allowances were paid based on an              findings and recommendations.
         hourly basis rather than a stipend basis as
         required;




                                                         15                        FY98 Semiannual Report No. 2
                                                                                  AUDITS
                                 AUDIT RESOLUTION

During this reporting period the Corporation continued to make progress in resolving open audit
findings. In our March 30, 1998, Semiannual Report, we reported that the Corporation had four
overdue management decisions (management decisions are due within 6 months of issuance of
an OIG report). At the end of this period, three reports were overdue. For one of these reports,
the Corporation's audit resolution committee had reached agreement on the issues, however,
management had not documented and approved the decision (see Table 111, Summary ofAudits
with Overdue Management Decisions, page 26). The number of reports for which the
Corporation has not completed final action has also been reduced from 18 to 16 (see Table IV,
Reports Described in Prior Semiannual Reports Without Final Action, page 27).

During this reporting period, the Corporation disallowed $326 thousand, or 37 percent, of the
costs questioned in the OIG's reports (see Table I, Inspector General Reports with Questioned
Costs, page 24). For costs questioned by OIG due to the lack of supporting documentation, the
Corporation disallowed 34 percent of the costs ($81 thousand out of $157 thousand).

                                                                 -   -




               Management Decisions on OIG Reports With Questioned Costs


                                                    Federal Questioned Costs


                                            Allowed              Disallowed           Total


                                                       (Dollars in thousands)

     Overall                               $206       63%          $120         37%     $326


     Unsupported                           $157       66%            $81        34%     $238




                                               16                     FY98 Semiannual Report No. 2
                                                                                          AUDITS


                 AUDIT REPORTS ISSUED DURING THE PERIOD
                  APRIL 1,1998 THROUGH SEPTEMBER 30,1998

                                                                              Federal        Federal
Report   Start     Issue                                                      Dollars        Dollars
Number   Date      Date                     Report Name                      Questioned    Unsupported


                                                                               (DolLars in thousands)

                           Review of Corporation Pre-Award Financial
                           Assessment of Grant Applicants
                           Review of National Multiple Sclerosis Society

                           Audit of the National Endowment for the Arts

                           Review of Corporation Budgetary Controls

                           Audit of the Los Angeles Veterans
                           Initiative, Inc.
                           Audit of the Student Conservation Association
                           Audit of the Navajo Nation
                           Audit of the Youth Volunteer Corps of
                           America

                           Review of the Corporation's Reconciliation &
                           Adjustment of its FY95 Fund Balance with
                           Treasury Accounts
                           Assessment of AmeriCorps Service Hour
                           Reporting

                           Assessment of Computer Difficulties
                           Associated with the Year 2000

                           Auditability Assessment of the Corporation's
                           FY97 Statement of Financial Position

                           Audit of the Corporation's Procurement and
                           Contracting Operations

                           TOTAL




                                               17                          FY98 Semiannual Report No. 2
                    INVESTIGATIONS SECTION

We began this reporting period with 14 previously opened investigative actions. During the
reporting period we opened 18 new investigative actions and closed 10. We had 22 investigative
actions pending at the end of this reporting period.


                    HIGHLIGHTS OF INVESTIGATIONS CLOSED
                       DURING THIS REPORTING PERIOD

                             -
Alleged Conflict of Interest Prosecution Declined - Management Does Not Respond

We completed an investigation into allegations concerning a conflict of interest situation
involving a senior staff member of a Learn and Serve America grantee, and unauthorized
drawdowns of grant finds by the grantee. We began our investigation after we were notified by
Corporation management that a senior staff member of the Puerto Rico Department of Education
(PRDE), awarded a contract to a friend's consulting firm in exchange for a teaching position at
the university where the k e n d was employed. We were further informed that the contract was
funded by unauthorized drawdowns made against PRDE's Learn and Serve America grant.

Our investigation determined that PRDE did in fact award a contract to Educavipro, Inc., a
consulting firm owned by a personal fnend of a senior PRDE staff member. We determined that
the PRDE staff member was involved somewhat in the selection of Educavipro, Inc. as the
contractor, although a lack of documentation prevented us from determining the full extent of
her involvement. We also determined that the PRDE senior staff member subsequently retired
from PRDE and began teaching at the same university where the friend was employed, and in
the same department in which the friend was employed.

We presented the results of our investigation to an Assistant U. S. Attorney (AUSA) in the U.S.
Attorney's Office in Hato Rey, Puerto Rico. The AUSA declined to accept this matter for
prosecution based on the low dollar amount involved and the poor health of the PRDE staff
member.

It was also alleged that payment for the aforementioned contract was improperly made inasmuch
as PRDE's account, administered by the U S . Department of Health and Human Services (HHS),
was frozen, and PRDE should not have been allowed to drawdown funds. Our investigation
found no evidence of impropriety by the grantee concerning the drawdown of h n d s afier the
account had been frozen. However, we did identify a practice, described below, that if not
corrected could allow additional unauthorized drawdowns to occur in the future.



                                              18                   FY98 Semiannual Report No. 2
                                                             INVESTIGA TIONS
After Corporation staff found what they characterized as serious financial and management
issues concerning the Learn and Serve America grants awarded to PRDE, they took steps on
December 6, 1995, to freeze PRDE's ability to drawdown funds from their Learn and Serve
America grant without prior authorization from the Corporation. The HHS, who administers the
drawdowns of these grant funds for the Corporation, actually placed this freeze, or hold, on
PRDE's account. On February 8, 1996, the HHS grants manager for PRDE's account mistakenly
removed the hold, thereby allowing PRDE to make several unauthorized drawdowns. HHS
reinstated the hold on the account on July 7, 1996, when they discovered it had been
inadvertently removed. The drawdown documents from HHS and payment records from PRDE
indicate that $61,000 used by PRDE to pay Educavipro, Inc., for services provided under the
contract were drawndown during the period the account should have been frozen but was not.
 It is apparent that the primary causative factor responsible for allowing the unauthorized
drawdowns was the inadvertent removal of the hold on PRDE's account by the HHS grants
manager.

Both the Corporation's grants officer and program officer failed to discover that PRDE was
drawing down funds at a time when the account was frozen. There are, however, reports
generated by HHS and provided to the Corporation that should have enabled Corporation staff
to detect and correct this error. HHS provides the Corporation's Grants Management Office a
daily activity report, which lists drawdowns by grantee. Information from the daily activity
report is entered into the Corporation's grants management database. The data entry person in
grants management scans the report for unusually high expenditures but does not scan for fiozen
accounts, although it is reportedly rare for an account to be frozen and could thus be easily
detected.

On March 9, 1998, we referred the above matter to Corporation management and recommended
that they develop and implement written policy that addresses procedures that must be followed
when an account is frozen. We advised Corporation management that such policy should
include, at a minimum, requiring each grants officer to routinely review the HHS daily activity
report, or the data extracted from that report, pertaining to the grantees for which they are
responsible, for discrepancies. We also informed the Corporation that we felt that particular
attention should be afforded to those grantees with frozen accounts. And finally, we
recommended that discrepancies should be promptly reported to Corporation and HHS
management, researched, resolved, and completely documented.

The above matter is closed within the files of our office. Corporation management has not
responded to our findings, nor have they responded to our requests for the status of corrective
measures that they may be contemplating. (Investigative Report 97-021)




                                                                   FY98 Semiannual Report No. 2
                                                                INVESTIGA TIONS
Alleged Embezzlement - Prosecution Declined - Referred to Management

We completed an investigation we opened after receiving allegations that the Executive Director
of the Southern California Interfaith Hunger Coalition (IHC) misapplied Federal funds.
Although we found evidence indicating the Executive Director misapplied Federal funds, the
cognizant United States Attorney declined to prosecute, citing the relatively low dollar amount,
the availability of other remedies, and, considering the totality of the circumstances, the lack of
jury appeal.

Our review of available documents disclosed that on August 3 1, 1996, the Corporation awarded
the Congressional Hunger Center (CHC) $2,292,223 in Federal h d s to implement and oversee
an ArneriCorps program as outlined in a cooperative agreement (96ADNDC099) between the
Corporation and CHC. This cooperative agreement allocated Federal funds to IHC, a sub-
grantee, to accomplish the objectives set forth in the agreement.

On September 18, 1996, the Executive Director of IHC submitted to CHC a Request for
Advance Reimbursement, requesting an advance of $104,563 to pay anticipated AmeriCorps
expenses during the period October 1, 1996 to December 3 1, 1996. On September 24, 1996,
CHC transferred $104,562.50 into IHC's credit union account.

We found evidence indicating that between September 24 and November 30, 1996, the Executive
Director misapplied some of the Federal funds to pay debts incurred prior to the period covered
by the cooperative agreement. These prior debts included delinquent employer's withholding
taxes, past-due loan payments, late staff payroll and ArneriCorps Member stipends and other
unpaid operating expenses incurred during the previous grant period or earlier.

In December 1996 the Internal Revenue Service (IRS) seized IHC's assets due to IHC's
delinquent employer's tax account. These assets were sold at auction to satisfy IHC's debts to
the IRS and IHC was subsequently dissolved.

During the course of our inquiry we found no indication that the Corporation conducted or
requested a pre-award financial assessment of IHC. A review of IHC's bank and credit union
statements would have disclosed that numerous IHC checks were returned for insufficient funds
and that M C was moving h d s between various accounts in a manner indicative of check kiting.
(It was reported that one of IHC's banks actually closed an IHC account because bank officials
suspected IHC was using the account to kite checks.) Casual discussion with IHC staff might
well have disclosed information concerning delinquent accounts and worthless payroll checks.
A more comprehensive discussion of deficiencies in the Corporation's pre-award financial
assessment process is documented in OIG Audit Report 98-02, Review of Pre-Award Financial
Assessment of Grant Applicants, issued in April 1998. (See page 11 of this Semi-annual report.)




                                                20                    FY98 Semiannual Report No. 2
                                                              INVESTIGATIONS
Corporation management was informed of the above on May 15, 1998. As management
requested, the OIG is auditing CHC. The audit began in April 1998 and is being conducted by
Leonard G. Birnbaum & Company. The results of the audit will be reported in OIG Audit
Report 99-04, Audit of Congressional Hunger Center. We therefore made no further
recommendations to management at the conclusion of this investigation, nor did we request a
response from management as a result of our investigative activity at IHC and CHC.
(Investigative Report 97-008)


Alleged Lobbying - Prosecution Declined - Referred to Management

We completed an investigation into allegations that a Corporation employee may have engaged
in lobbying when he forwarded an email message found on an ArneriCorps listsew to several
Corporation email account holders. We determined that a portion of the message obtained fiom
the listsew contained a passage that requested recipients of the message contact Members of
Congress in an apparent attempt to influence legislative decisions.

We found no evidence that the employee intended for recipients of his email message to contact
Members of Congress. The employee was interviewed and provided a sworn, written statement
wherein he denied any intent to lobby Members of Congress with appropriated h d s . The
AUSA declined this matter for prosecution because he felt the employee lacked the specific
intent required to violate the statute and because there were administrative sanctions available
to the Corporation.

Corporation management counseled the employee regarding the employee's conduct.
Corporation management was provided a copy of our report for their use as appropriate.
Inasmuch as action had been taken against the employee prior to completion of our report, we
documented the disciplinary action in our report and did not request a response from Corporation
management. (Investigative Report 98-023)




                                              21                    FY98 Semiannual Report No. 2
                      STATISTICAL SUMMARY OF INVESTIGATIONS


Opened and Closed
Number of Cases Open at Beginning of Reporting Period ..............................


Number of New Cases Opened During This Reporting Period.......................


Number of Cases Closed During This Period With
 . .         . .
Significant Findings .........................................................................................


Number of Cases Closed During This Period With
    . .         . .
No Significant Findings ...................................................................................


Total Cases Closed This Reporting Period......................................................


Number of Cases Open at End of Reporting Period ........................................


Referred
Number of Cases Referred for Prosecution During
This Reporting Period ......................................................................................


Number of Cases Accepted for Prosecution During
This Reporting Period ......................................................................................


Number of Cases Declined for Prosecution During
This Reporting Period ......................................................................................

Number of Cases Pending Prosecutive Review ...............................................




                                                              22                            FY98 Semiannual Report No. 2
    REVIEW OF LEGISLATION & REGULATIONS

Section 4(a)(2) of the Inspector General Act directs the OIG to review and make
recommendations about existing or proposed legislation and regulations relating to the
Corporation's programs and operations. The OIG recommendations, which we are to include
in our Semiannual Reports, should specifically address the impact of the legislation and
regulations on the economy and efficiency of the administration of the Corporations' programs
and operations. The OIG is also to make recommendations in its Semiannual Reports
concerning the impact of the legislation and regulations on the prevention and detection of fraud
and abuse in programs and operations administered or financed by the Corporation.


                            LEGISLATIVE PROPOSALS

During this reporting period, OIG has monitored and reviewed several proposals which would
amend the Inspector General Act. OIG provided advice and comment, as appropriate, to the
President's Council on Integrity and Efficiency (PCIE) concerning each proposal for use in
PCIE's response letter to the U.S. Congress.

In addition, as legislation that might affect the Corporation or the OIG has been developed and
proposed, Counsel has monitored and advised the Inspector General.


                            REGULATORY PROPOSALS
During this reporting period, the Corporation finalized 45 C.F.R. Part 1201. This Corporation
regulation concerns the disclosure of litigation-related information, and the assertion of
privileges and objections, by the Corporation. In part, the final regulation mandated that
responses to requests for such information be handled by the Office of the General Counsel. The
regulation failed to make exceptions for requests for information directed to the OIG. The
regulation also failed to make exceptions for requests for information by the OIG. The
Corporation has proposed language to amend the final regulation in a manner that will remedy
the omission.




                                                23                    FY98 Semiannual Report No. 2
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS

                                                                   Federal Costs
                                                 Number       Questioned     Unsupported

                                                                fDoNars in thousands)


     For which no management decision had
     been made by the commencement of the
     reporting period

     Which were issued during the reporting
     period                                          -
                                                     7             756

     Subtotals (1 plus 2)                             15          2,129


     For which %management decision was
     made during the reporting period                     7         326


     (i) dollar value of disallowed costs                            120


     (ii) dollar value of costs not disallowed       -              206


     For which no management decision had
     been made by the end of the reporting           -
                                                     8
                                                     -           $1.803
     period (3 minus 4)



6.   Reports with questioned costs for which              2      $1,049
     no management decision was made within
     six months of issuance




                                            24                FY98 Semiannual Report No. 2
                          TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                      Number         Dollar Value


                                                               (Dollnrs in thousands)

A.   For which no management decision had been
     made by the commencement of the reporting          0                           0
     period


B.   Which were issued during the reporting period


C.   For which a management decision was made
     during the reporting period

     (i) dollar value of recommendations that were
         agreed to by management
      - based on proposed management action

      - based on proposed legislative action

     (ii) dollar value of recommendations that were
          not agreed to by management


D.   For which no management decision has been
     made by the end of the reporting period
     Reports for which no management decision was
     made within six months of issuance




                                        25               FY98 Semiannual Report No. 2
                               TABLE IV
                 REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                     REPORTS WITHOUT FINAL ACTION

                                                             Final
Report                                               Date    Action         Status Of
Number                      Title                   Issued   Due*          Final Action


For which there is no ntanngernelrt decision

97-02     Audit of the Oregon Youth                          12/23/97 Management
          Conservation Corps                                           Decision is
                                                                       overdue (due
                                                                       6/22/97)

For which final action has not been reported

 96-01    Review of the New Orleans                          3/5/97    Final Action
          Youth Action Corps                                           has not been
                                                                       completed and/or
                                                                       reported to OIG

 96-04    Review of the Border Volunteer                     6/6/97
                                                                            ,. .,
          Corps
 96-16    Audit of the Greater Miami
          Service Corps
 96-21    Audit of ACORN Housing
          Corporation
 96-3 1 Pre-Audit Survey of CNS Grants
        Process
 96-32    Pre-Audit Survey of CNS
          Procurement Process
 96-36    Audit of CNS Fiscal Year 1994
          Financial Statements
 96-38    Report on the Results of the
          Auditability Study




                                               27               FY98 Semiannual Report No. 2
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                             Federal              Mgmt       Status as of
Report                                                       Dollars             Decision    September
Number                         Title                        Questioned            Due*        30, 1998

                                                       (Dollnrs in rhousnnds)

97-02      Audit of the Oregon Youth
           Conservation Corps                                   $ 280            6/22/97          1
98-06      Audit of the West Virginia
           Conservation and Service Corps                            769         7/27/98          2
98-22      Summary of the Results of Audits
           and Reviews of Grants Fiscal Years
           1995 through 1997                                             0       9/14/98


           Total                                                $1.049



* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance.




1 - Management Decision overdue.

2 - Under the Corporation's audit resolution policy, an Audit Resolution Committee proposes resolution
of recommendations made in audit reports. For one report, the Audit Resolution Committee reached
agreement on the issues; however, as of September 30, 1998, the decision had not been documented and
approved.




                                                  26                            FY98 Semiannual Report No.2
                               TABLE IV
                 REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                     REPORTS WITHOUT FINAL ACTION

                                                              Final
Report                                               Date    Action         Stntus Of
Number                      Title                   lssued   Due*          Final Action


For which there is no nrarzngement decisiolt

 97-02     Audit of the Oregon Youth                         12/23/97 Management
           Conservation Corps                                          Decision is
                                                                       overdue (due
                                                                       6/22/9 7)


For which final action has not been reported

 96-01     Review of the New Orleans                         3/5/97    Final Action
           Youth Action Corps                                          has not been
                                                                       completed and/or
                                                                       reported to OIG

 96-04     Review of the Border Volunteer                    6/6/97
                                                                            .. .,
           Corps
 96-16     Audit of the Greater Miami
           Service Corps
 96-21     Audit of ACORN Housing
           Corporation
 96-3 1 Pre-Audit Survey of CNS Grants
        Process
 96-32     Pre-Audit Survey of CNS
           Procurement Process
 96-36     Audit of CNS Fiscal Year 1994
           Financial Statements
 96-38     Report on the Results of the
           Auditability Study




                                               27               FY98 Semiannual Report No. 2
                                TABLE IV
                  REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                      REPORTS WITHOUT FINAL ACTION

                                                                          Final
Report                                                      Date          Action            Status Of
Number                        Title                        Issued         Due*             Final Action

           Follow-up Study to the                                        12/9/97       Final Action
           Auditability Survey                                                         has not been
                                                                                       completed andlor
                                                                                       reported to OIG

           Review of the National Alliance                               4/ 1/98
                                                                                            ,. ,.
           for Veteran Family Service
           Organizations
           Audit of Greater Miami Service
           Corps
           Audit of the National Service
           Trust Fund Fiscal Year 1995 and
           1994 Financial Statements
           Report on the Follow-up Study
           to the Auditability Survey
           Audit of the Corporation's Gift
           Fund
           Recommended Improvements to
           the National Service Trust Fund
           Operations



*For reports issued before February 10, 1996 (Report Numbers 96-04), final action must be completed
within 18 months of the issuance of the report, as established in the regulations of ACTION, the
Corporation's predecessor agency. For reports issued after that date, final action must be completed w i h
12 months of the report's issuance, as established under section 6009 of the Federal Acquisition
Streamlining Act, Public Law 103-355, as amended.




                                                                              FY98 Semiannual Report No. 2
                                    TABLE V
                        STATUS OF RECOMMENDATIONS ON
                       CORPORATION MANAGEMENT ISSUES
-
-



                                                  Number of      Corrective
                                              Recommendations     Action           Open
                                                 in Reports*    Completed**   Recommendations


    Corporation Fin an cia1 Man agenz en t
     Auditability Survey & Follow-up
     Reports (OIG Audit Reports 96-38,
     97-09,97-29, and 98-23)
     Audit of the Corporation's
     Procurement and Contracting
     Operations (OIG Audit Report 98-24,
     issued September 30, 1998)
     Alleged Prohibited Political Activity
     (OIG Investigation 98-023, issued
     April 15, 1998)
     Alleged Conflict of Interest and
     Unauthorized Drawdowns (OIG
     Investigation 97-02 1, issued March 9,
     1998)
     Alleged Travel Abuse (OIG
     Investigation 98-005, issued
     January 30, 1998)
    Trust Fund Operations
     Audit of National Service Tmst Fund
     Fiscal Year 1995 and 1994 Financial
     Statements (OIG Audit Report 97-27,
     issued March 10, 1997)
     Recommended Improvements to
     National Service Trust Fund
     Operations (OIG Audit Report 97-3 1,
     issued April 30, 1997)




                                              29                      FY98 Semiannual Report No. 2
                                   TABLE V
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                                      Number of         Corrective
                                                   Recommendations       Action             Open
                                                      in Reports*      Completed**     Recommendations

EDP Systems
 Assessment of Computer Difficulties                       21                 4                17
 Associated With the Year 2000 (OIG
 Audit Report 98-20, issued July 7,
 1998)

Grant Oversight and Monitoring
 Review of Training and Technical
 Assistance (OIG Audit Report 98-01,
 issued November 3, 1997)
 Review of Corporation Pre-Award
 Financial Assessment of Grant
 Applicants (OIG Audit Report 98-02,
 issued April 27, 1998)
 Assessment of AmeriCorps Service
 Hour Reporting (OIG Audit
 Report 98-19, issued August 27,
 1998)

Audit Resolutiorz
 OIG FY97 Semiannual Report 1
 (issued April 30, 1997)                                  -
                                                          5                 -
                                                                            0                 2

Total

* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance and corrective actions
completed within one year.
**The Corporation has not implemented an audit resolution system as required by OMB Circular A-50.
Therefore the infoinlation on corrective actions completed is based on OIG records and the results of OIG
follow-up audits when available.




                                                                             FY98 Semiannual Report No. 2
                 FY98 PERFOMANCE MEASURES

                           AUDIT PERFORMANCE MEASURES

One of our strategic goals continues to be improving the quality and delivery of OIG services,
reports and other work products. Although OIG has developed new measures to augment the
originally established audit statistics, the Office continues to monitor the number of audit reports
issued annually, and their cost and their timeliness, as the table below illustrates.


                               AUDIT PERFORMANCE STATISTICS
                                                                                      Fiscal Year

                                                                          1996              1997              1998

    Number of Audit Reports (')                                                33                26                22
    Questioned Costs (in thousands)                                      $1,854            $2,024            $1,776
    Recommendation That Funds Be Put To
    Better Use (in thousands)                                               $200                 $0          $1,618

    Costs per Audit Hour
       OIG Staff                                                                               $75               $70
       Contracted Services (2)                                                  -              $66               $66
    Timeliness (3'                                                     168 days         223 days          207 days

    (1) Decrease in the number of audits reports issued results from the planned changed from grant cost audits to
        more complex performance and operational audits.

    (2) OIG cost per hour estimate is based on the total salary and benefit costs for audit staff divided by the direct
        hours charged to audit assignments.

    (3) From inception of an auditheview through report issuance of the final report, which includes a 30 day response
        period.



As shown above, two audit performance measures - the cost per audit hour for OIG staff and
the timeliness of audit reports issued - improved during fiscal year 1998. Both of these
statistics had shown a marked decrease in performance during fiscal year 1997.




                                                             31                           FY98 Semiannual Report No. 2
                                 FY98 PERFORMANCE MEASURES

The fiscal year 1997 increase in the cost per hour for OIG audit staff was due in large part to
turnover in audit staff, which lowered the utilization rate (the amount of time spent on audit
assignments versus other activities, including training, annual leave, holidays, etc.). In fiscal
year 1997, the average utilization rate was about 50 percent for audit staff. While still
experiencing significant turnover in fiscal year 1998, we were able to improve the average
utilization rate to about 68 percent and reduce the average cost for OIG staff to $70 per hour.

 The time it took OIG to issue an audit report also improved significantly during fiscal year 1998,
decreasing by an average of 16 days from its peak in fiscal year 1997. The factors contributing
to the delays in reports during fiscal year 1997 included the lack of timely performance by
several independent public accounting firms under contract and the increased complexity of
assignments undertaken by OIG. OIG no longer utilizes the services of the f m s that contributed
to delays in the past. Nonetheless, we anticipate that the audit assignments performed by 01G
will continue to increase in their complexity, which will have a continuing impact on the length
of time as well as the number of audits we will be able to perform.


              INVESTIGATIONS PERFORMANCE MEASURES

The basic mission of the OIG investigative element is to lawfully determine as many of the facts
as possible surrounding a given incident. The incident under review may include allegations of
criminal activity, allegations of non-criminal activity, or allegations that include both criminal
activity and non-criminal activity. The basic mission of the investigative element remains
unchanged regardless of the nature of the incident: determine as many facts as possible
surrounding a given incident. How an allegation is developed, i.e., reactively or pro-actively,
has no impact on the basic mission.
What occurs after the initial receipt of a complaint, allegation, or information that results in the
development of a complaint or allegation, varies, depending primarily upon whether the matter
is criminal or non-criminal, and if criminal, whether or not it is accepted by the Department of
Justice for prosecution.

All matters involving evidence of Federal criminal violations are referred to the Department of
Justice for a prosecutive decision. This does not mean that all allegations of Federal criminal
violations are referred; only those with evidence of a Federal criminal violation are referred, with
some exceptions. For example, all allegations of significant fraud and all allegations against
certain senior government officials are referred to the Department of Justice without regard to
the amount of evidence available at the time the allegations are received. The majority of the
ciminal matters we investigate involving Corporation programs and operations are declined for
prosecution by the Department of Justice because of the low dollar amounts involved. We have




                                                 32                     FY98 Semiannual Report No. 2
                                 FY98 PERFORMANCE MEASURES
had no declinations of a criminal matter because of our inability to sufficiently develop evidence
of criminal misconduct.

Those matters that are determined to be non-criminal and those matters that have been declined
for prosecution by the Department of Justice are often referred to Corporation management for
administrative action. This administrative action might involve suspension or even removal of
an employee. Administrative action could also involve a redesign or refinement of a process or
system that was identified by our efforts as one that could be improved. When OIG refers such
matters to management, we usually request that management provide us a brief narrative of what,
if any, administrative action was taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that
OIG finds did not occur, did not occur as alleged, or were not within our purview. While some
of these matters are as important as a founded criminal investigation (and as such are identified
and reported separately), the majority are minor and are combined in one quarterly file, without
opening a separate investigative action. Regardless of the severity however, each matter requires
some degree of preliminary inquiry. The following table presents statistics on OIG's
investigative workload.



                   INVESTIGATIONS PERFORMANCE STATISTICS

                                                                   Fiscal Year



    Investigative Actions Opened                        23         39          31        41
    Investigative Actions Resolved and Closed           14         29          46         30
    Average Monthly Caseload                         Unknown       23          19         17
    Investigative Matters Resolved                   Unknown       48          69         37
    Without Opening a Separate Investigative
    Action
    Referrals for Prosecution
    Administrative or Management Action
    Taken




                                                33                      FY98 Semiannual Report No. 2
                                 FY98 PERFORMANCE MEASURES

The total number of investigative matters reported (the sum of Investigative Actions Opened and
Investigative Matters Resolved Without Opening a Separate Investigative Action) decreased
from 100 in fiscal year 1997 to 78 in fiscal year 1998. We see no particular significance in this
decrease.

The total number of Investigative Actions Opened increased from 3 1 in fiscal year 1997 to 41
in fiscal year 1998. The reason for part of this increase is apparent when viewed alongside the
decrease in fiscal year 1998 of Investigative Matters Resolved Without Opening a Separate
Investigative Action. We simply had a few more significant matters that required initiating a
separate, more visible, investigative file in order to resolve the matters.

The total number of Investigative Actions Resolved and Closed decreased from 46 in fiscal year
1997 to 30 in fiscal year 1998. It appears that the primary reason for this decrease is our success
at holding down the caseload by closing cases as soon as possible, thereby lowering the average
monthly caseload and not allowing a backlog of cases to develop.

Two of our more significant criminal investigations are currently in the hands of the U.S.
Attorney; one pending presentation to the Federal grand jury, and the other pending sentencing
following a guilty plea. An additional matter involving an alleged contract fraud amounting to
about a half million dollars has been accepted by the U.S. Attorney's Office for recovery under
the False Claims Act. In another criminal matter that was handled administratively after the U.S.
Attorney declined to prosecute, the Corporation corrected National Service Trust Fund Records
of four ArneriCorps Members, reducing their eligibility status for an education award from "full-
time" to "part-time." This resulted in savings of $9,450. Other investigative matters have
resulted in recommendations to Corporation management that corrective actions be taken to
correct cited deficiencies or crime conducive conditions.

We closed one investigative matter within the files of our office afier Corporation management
did not respond to our findings or to our requests for the status of corrective measures that they
may have been contemplating. While Corporation management has historically been slow to
respond to investigative findings, their failure to respond to these findings was particularly
noteworthy for two reasons. First, after not reporting this matter to OIG for approximately six
months, members of Corporation management requested the status of the investigation on
several different occasions, giving the impression they were interested in resolving the matter.
And second, we identified for Corporation management what we felt was a major, but easy to
correct, oversight in their control of Federal grant funds. Management's non-response to these
findings, and to our requests for the status of corrective measures, left us perplexed as to
Corporation management's thoughts regarding good stewardship of Federal funds. (Investigative
Report 97-02 1)




                                                 34                    FY98 Semiannual Report No. 2
